Mazuma Credit Union
7260 W. 135th Street
Overland Park, KS 66223
(913) 574.5000 (888) 361.4194
www.mazuma.org

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card is
accurate as of _______________. You can contact us toll free at the number or address above to inquire if any changes
occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
Annual Percentage Rate (APR) for
Purchases & Balance Transfers

0% Introductory APR for _____ months.
After that, your Standard APR will be

9.90%, 11.90%, 14.90%, or 18.90%
depending on your credit history.
APR for Cash Advances

9.90%, 11.90%, 14.90%, or 18.90% depending on your credit history.

Paying Interest

Your due date is at least 21 days after the date of your billing statement. We
will not charge you interest on purchases if you pay your entire new
purchase balance by the due date each month. We will begin charging
interest on cash advances and balance transfers on the date the cash
advance or balance transfer is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your
Account
· Annual Fee:

None

· Application Fee:

None

Transaction Fees
· Balance Transfer:

None

· Cash Advance:

None

· Foreign Transaction:

None

Penalty Fees
· Late Payment:

$15.00 if the minimum payment is more than $25.00, or $5.00 if the
minimum payment is $25.00 or less.

· Over-the-Credit Limit:

None

· Returned Payment:

$15.00, plus the actual amount of any charges assessed against us by
another financial institution for processing a refused check, share draft, or
other payment method used by you for payment on your account.

How We Will Calculate Your Balance: We use a method called "average daily balance (excluding new purchases)."
Loss of Introductory Rate: There will be no loss of the Introductory APR during the first _____ months.
9009 SYM FI17619 Rev 2-2015

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

